                                                     ~ SECu
                                                   :)C;
                                                     ~
                                                   W/ts~~
                                                   \     IIIIIII ~~
                                                       ~IST\\.t'

                                        SOCIAL          SECURITY

MEMORANDUM                               Office of the Inspector General

Date:      A{Igust    22,   2001                                                       ReferTo:
           James      F. Martin
To:
           Regional      Commissioner
            of Chicago


From:
           Inspector General



Subject:   Financial-Related Audit of An Organizational Representative Payee for the
           Social Security Administration (A-05-00-10067)


           The attached final report presents the results of our audit. Our objectives were to
           determine whether the organizational representative payee (1) had effective
           safeguards over the receipt and disbursement of Social Security benefits and
           (2) ensured Social Security benefits were used and accounted for in accordance with
           the Social Security Administration's policies and procedures.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                                      James G. Huse, Jr.

           Attachment

           cc:
           Fritz Streckewald
           JoEllen Felice
           Helen Hepner
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   FINANCIAL-RELATED AUDIT OF

       AN ORGANIZATIONAL

  REPRESENTATIVE PAYEE FOR THE

 SOCIAL SECURITY ADMINISTRATION



    August 2001   A-05-00-10067

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary

OBJECTIVE

Our objectives were to determine whether the organizational representative payee
(Rep Payee), (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint Rep Payees to receive and manage these beneficiaries’ benefits
and recipients’ payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries or Supplemental Security Income (SSI) recipients when representative
payments would serve the individual’s interests.

Rep Payees are responsible for using benefits to serve the beneficiary’s or recipient’s
best interests. Their duties include:

•	 using benefits to meet the beneficiary’s or recipient’s current and foreseeable
   needs;

•   conserving and investing benefits not needed to meet the individual's current needs;

•   maintaining accounting records of how the benefits are received and used;

•	 reporting events to SSA that may affect the individual's entitlement or benefit
   payment amount;

•	 reporting any changes in circumstances that would affect their performance as a
   Rep Payee; and

•	 providing SSA an annual Representative Payee Report (RPR) accounting for how
   benefits were spent and invested.

The organizational Rep Payee we audited is an attorney located in Michigan. In
addition to meeting SSA requirements, the Rep Payee acts as guardian for individuals
who receive Social Security benefits and are incapable of caring for themselves.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)            i
RESULTS OF REVIEW
Based on our examination, we concluded that the organizational Rep Payee generally

(1) had effective safeguards over the receipt and disbursement of Social Security

benefits and (2) ensured that Social Security benefits were used and accounted for in

accordance with SSA’s policies and procedures. We determined that, for 50 sampled

beneficiaries randomly selected from 424 cases, (1) the Rep Payee accurately recorded

benefits it received from SSA, (2) all expenses appeared to be proper, and (3) the

Rep Payee maintained source documents that allowed us to determine the expenses

were reasonable and authentic. However, we could not determine whether the

Rep Payee properly reported to SSA how benefits were used for certain individuals

because SSA could not locate 12 of 30 RPRs we requested (see Other Matters section

of this report).


From September 1999 through August 2000, the Rep Payee received $305,939 in

SSA funds for the 50 sampled individuals. Except for one case, we found no problems

with the Rep Payee’s accounting for and/or use of those funds. One recipient received

an SSI payment of $359 for a month during which the individual exceeded the

$2,000 resource limit in conserved funds and was, therefore, ineligible. This occurred

because the Rep Payee improperly monitored the recipient’s conserved fund balances.

Since this was an isolated error and the Rep Payee returned the funds to SSA, we have

no recommendation.


SSA maintains information on Rep Payees and their beneficiaries in the Rep Payee

System (RPS). When we attempted to identify the number of recipients in the

Rep Payee’s care, we initially found two listings in the RPS for the Rep Payee. These

listings had different zip codes and locations. When we informed SSA regional staff,

they queried the RPS and found another listing of recipients for the Rep Payee under

another location. Each Rep Payee should be listed once in the RPS to enable users to

easily identify all recipients in a Rep Payee’s care.


CONCLUSIONS AND RECOMMENDATION

Generally, the Rep Payee met its responsibilities for individuals receiving OASDI
benefits and SSI payments. However, SSA needs to ensure that all of the Rep Payee’s
beneficiaries and recipients are listed in one location on the RPS to facilitate identifying
all recipients in the Rep Payee’s care.

We recommend that SSA update the RPS to consolidate the multiple entries for this
Rep Payee and include all individuals for whom this Rep Payee was selected. In
addition, SSA should ensure that all individuals assigned a Rep Payee have only one
Rep Payee for all SSA benefits received.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)            ii
AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendation. The Agency
added that the multiple listings for this Rep Payee have been consolidated. The full text
of SSA’s comments is included in Appendix B.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)         iii
                                                                    Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 5

   Resource Limit Exceeded................................................................................…5

   Multiple Listings of Rep Payees in SSA’s RPS………………………………….….6

CONCLUSIONS AND RECOMMENDATION......................................................... 7

OTHER MATTERS................................................................................................. 8

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)
                                                                        Acronyms

OASDI                 Old-Age, Survivors and Disability Insurance


POMS                  Program Operations Manual System


Rep Payee             Representative Payee


RPR                   Representative Payee Report


RPS                   Representative Payee System


SSA                   Social Security Administration


SSI                   Supplemental Security Income





Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)
                                                                    Introduction

OBJECTIVE

Our objectives were to determine whether the organizational representative payee
(Rep Payee), (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint Rep Payees to receive and manage these beneficiaries’ benefits
and recipients’ payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries or Supplemental Security Income (SSI) recipients when representative
payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the beneficiary’s or recipient’s
best interests. Their duties include:

•	 using benefits to meet the beneficiary’s or recipient’s current and foreseeable
   needs;

•    conserving and investing benefits not needed to meet the individual's current needs;

•    maintaining accounting records of how the benefits are received and used;

•	 reporting events to SSA that may affect the individual's entitlement or benefit
   payment amount;

•	   reporting any changes in circumstances that would affect their performance as a
     Rep Payee; and

•	   providing SSA an annual Representative Payee Report (RPR) accounting for how
     benefits were spent and invested.

Under the SSI program, a recipient is limited to $2,000 in resources to remain eligible
for benefits. If this resource limit is exceeded, benefit payments to that recipient are
suspended. Such benefits will resume if the recipient’s resources later fall below the
limit. Since the Rep Payee is responsible for notifying SSA of any event that affects the


Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)            1
recipient’s right to receive benefits, the Rep Payee must notify SSA if a recipient’s
resources exceed the $2,000 limit in any given month.

Beneficiaries’ funds not needed for the immediate or reasonably foreseeable current
maintenance needs must be conserved or invested. Preferred investments for excess
funds are U.S. Savings Bonds. Funds not needed for current maintenance may be
deposited in an interest or dividend-bearing account in a bank, trust company, credit
union, or Savings and Loan Association that is insured under either Federal or State
law. Any interest earned on this account belongs to the individual, not the Rep Payee.
SSA recommends that Rep Payees hold beneficiaries’ conserved funds of $150 or
more in an interest-yielding account or investment.1 The Rep Payee maintains
conserved fund balances over $500 in a separate, interest-yielding savings account.
According to the Rep Payee, it maintains balances under $500 in a separate
noninterest-yielding checking account because service charges would exceed interest
earned on these account balances.

About 6.5 million individuals have Rep Payees – approximately 4.2 million are OASDI
beneficiaries, 1.7 million are SSI recipients, and 500,000 are entitled to both OASDI
and SSI.2 The chart below reflects the types of Rep Payees and the number of
individuals they serve.

                                                        Number                Number of
                 Type of Rep Payee                         of                 Individuals
                                                       Rep Payees               Served
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                4,155,000               5,750,000
    Organizational Payees: State Institutions,
    Local Governments and Others                            44,150                690,000

    Organizational Payees: Fee-for-Service                      850                   60,000

                         Total                           4,200,000               6,500,000

The organizational Rep Payee we audited is an attorney who acts as guardian for
individuals who have no one else to care for them. After receiving a petition that
someone is incapable of caring for himself or herself, the local probate court conducts
hearings to determine who shall act as guardian. As a guardian, the Rep Payee is
responsible for individuals’ living conditions and medical treatment. Often, the court will
designate the Rep Payee as conservator as well as guardian. As a conservator, the
Rep Payee is responsible for financial matters. After becoming an individual’s
guardian, the Rep Payee then applies to SSA to become a Rep Payee.


1
    Program Operations Manual System (POMS) sections GN 00603.001 and GN 00603.010.
2
    Numbers do not add due to rounding.


Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)                 2
As a guardian, the Rep Payee can also petition the local probate court to be
compensated for services performed. Some of the services listed in the petition are the
same services performed by a Rep Payee. If the probate court approves the petition,
the Rep Payee can be compensated from the individual’s account maintained by the
law firm. This approval is required because of the fiduciary relationship between the
court, the individual, and the guardian. SSA’s policy allows for a guardian who is also a
Rep Payee to be paid from SSA funds.3 While the Rep Payee acts as both a guardian
and a Rep Payee for many individuals, it receives guardianship and attorney fees by
petitioning the local probate court and does not receive rep payee fees. We noted that
for SSI recipients, these fees approximate what SSA would pay the Rep Payee for
acting as a Rep Payee.

SCOPE AND METHODOLOGY
Our audit covered the period September 1, 1999 through August 31, 2000. To
accomplish our objectives, we:

•	 Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
   pertaining to Rep Payees.

•	 Contacted SSA Regional Office and field office staff to obtain background
   information about the Rep Payee’s performance as a Rep Payee.

•	 Obtained from SSA’s Rep Payee System (RPS) a list of individuals who were in the
   Rep Payee’s care and received SSA funds as of September 27, 2000 or who left the
   Rep Payee’s care after August 31, 1999.

•	 Obtained from the Rep Payee a listing of individuals who were in its care and
   received SSA funds as of September 27, 2000 or who left its care after
   August 31, 1999.

•	 Compared and reconciled the RPS to the Rep Payee’s listings to identify the
   population of SSA individuals who were in the Rep Payee’s care during
   September 1999 through August 2000.

•	 Reviewed and tested the Rep Payee’s internal controls over the receipt and
   disbursement of OASDI benefits and SSI payments.

•     Performed the following tests for 50 sampled beneficiaries and recipients.

      -   Compared and reconciled benefit amounts paid according to the Rep Payee’s
          records to benefit amounts paid according to SSA’s payment records.



3
    POMS section GN 00602.040.A.


Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)         3
    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf. We also
        determined whether SSA was due a refund for overpaid benefits.

    -   Traced a sample of expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

•	 Interviewed a sample of the Rep Payee’s beneficiaries to determine whether their
   basic needs were being met.

•   Performed third-party confirmations of the Rep Payee’s bank account balances.

•	 Requested a sample of 30 RPRs from SSA to determine whether income and
   expenses were correctly reported to SSA and reviewed 18 of the 30 that were
   located by SSA.

We performed audit work in Detroit, Michigan, from October 2000 to February 2001.
We conducted our audit in accordance with generally accepted government auditing
standards.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)        4
                                                      Results of Review

Based on our examination, we concluded that the Rep Payee generally (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured that Social Security benefits were used and accounted for in accordance
with SSA’s policies and procedures. Specifically, we determined that, for 50 sampled
beneficiaries, (1) the Rep Payee accurately recorded benefits it received from SSA,
(2) all expenses appeared to be proper, and (3) the Rep Payee maintained source
documents that allowed us to determine the expenses were reasonable and authentic.
However, we could not determine whether the Rep Payee properly reported to SSA
how benefits were used because SSA could not locate 12 of 30 RPRs we requested
(see Other Matters section of this report).

We selected a random sample of 50 beneficiaries and recipients from the
424 individuals who received benefits from September 1999 through August 2000. The
Rep Payee received $305,939 in benefits for these 50 individuals (see table below).

                                                 Benefits Received
                        Number                                                   Total SSA
                        Of Cases                SSI              OASDI            Funds
 SSI Only                   17                 $68,577                  $0        $68,577
 OASDI Only                 26                        $0        $187,501         $187,501
 Concurrent                  7                 $23,932           $25,929          $49,861
     Total                  50                 $92,509          $213,430         $305,939

Except for one case, we found no problems with the Rep Payee’s accounting for and/or
use of those funds. One recipient received an SSI payment of $359 for a month during
which the individual exceeded the $2,000 resource limit in conserved funds and was,
therefore, ineligible. This occurred because the Rep Payee improperly monitored the
recipient’s conserved fund balances. This was an isolated error and the Rep Payee
returned the funds to SSA.

Resource Limit Exceeded

In 1 of the 50 cases reviewed, the Rep Payee received an SSI payment for a recipient
who had exceeded the $2,000 resource limit. This occurred because the Rep Payee
inadequately monitored the conserved fund balance. As a result, SSA overpaid the
recipient $359 in SSI benefits for a 1-month period.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)               5
The Rep Payee maintains a separate ledger for each recipient. The Rep Payee uses
these ledgers to record all checks received for the recipients and to record all payments
made on the recipient’s behalf. Our review of these ledgers disclosed that the
conserved fund balance for one recipient was over the $2,000 monthly resource limit
allowed by the SSI program for 1 month. When we brought this to the Rep Payee’s
attention, it promptly returned the $359 SSI payment to SSA. The Rep Payee stated
that it would more closely monitor the SSI resource limitation, although it believed this
was an isolated instance.

Multiple Listings Of Rep Payees In SSA’s RPS
SSA maintains information on Rep Payees and their beneficiaries in the RPS. When
we attempted to identify the number of recipients in the Rep Payee’s care, we initially
found two listings in the RPS for the Rep Payee with different zip codes and locations.
When we informed SSA regional staff, they queried the RPS and found another listing
of recipients for the Rep Payee under another location. Each Rep Payee should be
listed once in the RPS to enable users to identify all recipients in a Rep Payee’s care.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)             6
                                                       Conclusions and

                                                      Recommendation

Generally, the Rep Payee met its responsibilities for individuals receiving OASDI
benefits and SSI payments. However, SSA needs to ensure that all of the Rep Payee’s
beneficiaries and recipients are listed at one location on the RPS to facilitate in
identifying all recipients in the Rep Payee’s care.

We recommend that SSA update the RPS to consolidate the multiple entries for this
Rep Payee and include all individuals for whom this Rep Payee was selected. In
addition, SSA should ensure that all individuals assigned a Rep Payee have only one
Rep Payee for all SSA benefits received.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. The Agency
added that the multiple listings for this Rep Payee have been consolidated. The full text
of SSA’s comments is included in Appendix B.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)         7
                                                               Other Matters

REPRESENTATIVE PAYEE REPORTS
One method SSA uses to monitor Rep Payees is the RPR. This report assists SSA in
determining (1) the use of benefits during the proceeding 12-month reporting period,
(2) the Rep Payee’s continuing suitability, and (3) the continuing need for representative
payment. Depending on the responses, SSA may contact the Rep Payee to determine
continued suitability. During our review, we found several completed RPRs that had
questionable information. In addition, we found SSA could not always obtain and
retrieve completed RPRs from the Rep Payee.

RPR with Conserved Funds in Excess of $2,000

In one case, the Rep Payee reported $2,600 in conserved funds to SSA as of
May 1999. This should have initiated a SSA review to determine whether the recipient
was eligible for payments. However, no review was performed and, as a result,
benefits continued without interruption. We confirmed that no overpayment had been
recorded, and it was not noted that this SSI recipient was over the resource limit. This
indicates that SSA did not properly review the RPR. SSA regional staff agreed that this
case should have been reviewed for further development.

SSA Retrieval of RPRs

To determine whether the Rep Payee properly reported to SSA how benefits were
used, we requested from SSA the most recently completed RPRs for 30 of the
Rep Payee’s recipients. While the Rep Payee staff provided us with 29 of the 30 RPRs
we requested, SSA was unable to provide 12 of the 30 RPRs requested. Because SSA
did not provide all the RPRs requested, we could not independently confirm that the
Rep Payee met its reporting responsibilities. For the 12 RPRs SSA did not provide, we
could not determine whether the Rep Payee properly submitted the reports and SSA
lost them or if they were never submitted. The Rep Payee showed us several letters it
had written in response to second and third requests by SSA for RPRs it had already
sent. Our review of the 18 RPRs SSA received from the Rep Payee disclosed that the
Rep Payee submitted the RPRs between 8 and 279 days late.

Accounting for Expenses on RPRs

For 12 of the 18 RPRs SSA received from the Rep Payee, all recipient expenses were
reported under 1 question. Question “C” pertains to how much was spent on other
things for the recipient, such as clothing, education, medical and dental expenses, and
recreation or personal items during the 12-month reporting period shown on the



Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)          8
pre-printed RPR. The other two questions on the RPR pertain to how much was spent
for food and housing (“B”) and any amount saved for that year (“D”).

We asked the Rep Payee about reporting all expenses under Question “C,” when food
and housing expenses for residing in a nursing home were separated on the recipients’
ledger. We were given a copy of Internal Revenue Service Regulation 1.213-1 (e)(V)(a)
which states that, “The entire cost of nursing home care is deductible for a mentally
incompetent person who is unsafe when left alone.” The Rep Payee indicated it did not
want to report one amount categorized as food and housing to SSA on Question “B” on
the RPR, when Question “C” was used to report the same amount to the Internal
Revenue Service. We believe the Rep Payee should properly classify the costs
regardless of Internal Revenue Service reporting requirements. SSA regional staff
agreed that the Rep Payee should appropriately allocate expenses between Questions
“B” and “C.”

BLANK DISBURSEMENT CHECKS
The blank disbursement checks the Rep Payee used to pay recipient expenses were
kept in an unlocked drawer. The Rep Payee told us the office doors are locked at night
when the last person leaves. The Rep Payee also told us that custodial services clean
the offices after normal business hours. We believe that blank disbursement checks
should be maintained in a locked drawer to help prevent unauthorized use.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)       9
                                            Appendices





Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)
                                                                           Appendix A

Sampling Methodology and Results
We obtained from the Social Security Administration (SSA) Representative Payee
System (RPS) and the representative payee (Rep Payee) separate listings of recipients
who were in the care of the organizational Rep Payee and had received SSA funds
as of September 27, 2000 or who left the Rep Payee’s care after August 31, 1999. We
compared and reconciled these lists to identify the population of 424 SSA beneficiaries
and recipients who were in the Rep Payee’s care from September 1999 through
August 2000. From this population, we obtained a random sample of 50 cases. The
Rep Payee received $305,939 in SSA funds for the 50 sampled individuals from
September 1999 through August 2000.

We reviewed the random sample to determine the accuracy of the Rep Payee’s
financial records. We compared and reconciled benefit amounts paid according to the
Rep Payee’s records to benefit amounts paid according to SSA payment records. We
also reviewed the Rep Payee’s accounting records to determine whether payments
were properly spent or conserved on the beneficiaries and recipients’ behalf. We
determined whether SSA was due a refund of payments that were not properly used.
We traced a sample of expenses to source documents and examined the underlying
documentation for reasonableness and authenticity. We also interviewed a sample of
10 Rep Payee beneficiaries to determine whether their basic needs were being met.

Specifically, we determined that, for 50 sampled cases, (1) the Rep Payee accurately
recorded benefits it received from SSA, (2) all expenses appeared to be proper, and
(3) the Rep Payee maintained source documents that allowed us to determine the
expenses were reasonable and authentic. Except for one case, we found no problems
with the Rep Payee’s accounting for and/or use of those funds. One recipient was
overpaid $359 in SSI benefits for a month in which the individual was ineligible because
of excess resources.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)
                                                                           Appendix B


Agency Comments





Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)
                                                ~\. SEC'V
                                               OC.i
                                                n;~~
                                              W/ts~~
                                              \~ IIIII11
                                                       ~!
                                                 JVlSTv-t--


                                  SOCIAL        SECURITY
MEM     O RAND   UM


Date:            July 19,2001                                  Refer To:    S2DSG3

To:              Inspector General

From:            Regional Commissioner
                 Chicago

Subject:         Financial-Related Audit of An Organizational RepresentativePayeefor the Social
                 Security Administration (A-05-00-10067)(Y our Request Dated June 28, 2001)--
                 REPLY

                 We have re'viewedthe subject audit and concur with the findings.

                 SSA hasbeen aware of multiple listings on the RepresentatIvePayeeSystem (RPS)
                 for some payeesfor sometime. We recently.issuedinstructions to the field offices
                 (FOs) regarding ways to correct RPS. We launched an effort to consolidate as
                 many records as possible. The multiple listings for the organization that was the
                 subject of this audit has been consolidated.In addition, FO staff have been alerted
                 to review future accountingsfor proper reporting.

                 We would like to thank the Office of the Inspector General (OIG) for conducting
                 this review. We appreciated the professionalism shown by the local OIG staff
                 during the courseof the review.

                 If your staff have any questions, they may call Denise Niesman of the
                 Retirement and Survivors Insurance Team at (312) 575-4241.
                                                                           Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

William Fernandez, Director, Program Benefits Audit Division, (510) 970-1739


Barry Shulman, Deputy Director, (312) 353-0331


Acknowledgments


In addition to those named above:


    Richard Dubin, Auditor-in-Charge

    Elizabeth Juarez, Auditor

    Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-05-00-10067.




Financial-Related Audit of An Organizational Rep Payee for SSA (A-05-00-10067)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division
                                           1
 Director, Disability Program Audit Division
                                    1
 Director, Program Benefits Audit Division
                                      1
 Director, General Management Audit Division
                                    1
Issue Area Team Leaders 
                                                       25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
